No. 19-465, 19-518
INTHE

Supreme Court of the Anited States

PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA, AND ROBERT NEMANICH,
Respondents.

On Writs of Certiorari to the
Supreme Court of Washington and the
US. Court of Appeals for the Tenth Circuit

BRIEF OF AMICI CURIAE MICHAEL L. ROSIN, DAVID
G. POST, DAVID F. FORTE, MICHAEL STOKES
PAULSEN, AND SOTIRIOS BARBER IN SUPPORT OF
PRESIDENTIAL ELECTORS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I
certify that the document contains 7,935 words, excluding
the parts of the document that are exempted by Supreme
Court Rule 33.1(d).

I declare under penalty of perjury that the
foregoing is ture and correct.

Executed on ee
LUnr"»~ ” —_

Michael Donofrio
Stris & Maher LLP
